OFFICE OF THE INSPECTOR GENERAL




       CASH IMPACT OF THE CONSUM4BLE
           ITEM TRANSFER, PHASE II



                                 February 11, 1998




       Department of Defense
I
    Additional Information and Copies
    To obtain additional copies of this report, contact the Secondary Reports Distribution Unit of
    the Analysis, Planning, and Technical Support Directorate at (703) 604-8937 (DSN 664-8937)
    or FAX (703) 604-8932.

    Suggestions for Audits
    To suggest ideas for or to request future audits, contact the Planning and Coordination Branch
    of the Analysis, Planning, and Technical Support Directorate, at (703) 604-8908
    (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: APTS Audit Suggestions)
                  Inspector General, Department of Defense
                  400 Army Navy Drive (Room 801)
                  Arlington, Virginia 22202-2884

    Defense Hotline
    To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
    sending an electronic message to Hotline@DODIG. OSD.MIL; or by writing to the Defense
    Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
    is fully protected.




    Acronyms
    CIT                   Consumable Item Transfer
    DLA                   Defense Logistics Agency
    ICP                   Inventory Control Point
                              INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON. VIRGINIA 22202-2884




                                                                         February 11, 1998
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               DEPUTY UNDER SECRETARY OF DEFENSE (LOGISTICS)
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Audit Report on the Cash Impact of the Consumable Item Transfer, Phase II,
         FY 1997 (Report No. 98071)

        We are providing this report for your information and use. This report is the third
in a series of reports regarding the Consumable Item Transfer, Phase II. The audit was
requested by the Under Secretary of Defense (Comptroller), Deputy Comptroller (Program
and Budget). We considered management comments on a draft of this report in preparing
the final report.
        Comments on the draft report conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Tilghman Schraden, Audit Program Director, at (703) 604-9186
(DSN 664-9186) (tschraden@dodig.osd.mil) or Mr. Pat Golden, Audit Project Manager, at
(215) 737-3881 (DSN 444-3881) (jgolden@dodig.osd.mil). See Appendix C for the report
distribution. The audit team members are listed inside the back cover.



                                           Robert-J. Lieberman
                                        Assistant Inspector General
                                                for Auditing
                          Office of the Inspector General, DOD


Report No. 98-071                                                 February 11, 1998
(Project NO . 7LD-5038)

                 Cash Impact of the Consumable Item Transfer,
                              Phase II, F’Y 1997

                                Executive Summary

Introduction. This audit was requested by the Under Secretary of Defense
(Comptroller), Deputy Comptroller (Program and Budget). This report is the third in a
series of reports regarding the consumable item transfer (CIT), phase II. The Deputy
Secretary of Defense directed the transfer of the management of consumable items to
the Defense Logistics Agency (DLA) in July 1990. The transfer process was separated
into two phases. The CIT, phase I, was completed in November 1995, and phase II
was scheduled for completion in FY 1998. In November 1995, the Military
Departments threatened to stop the phase II transfer unless DLA agreed to reimburse
the Military Departments’ Supply Management business areas of their Defense
Working Capital fund to compensate the Military Departments for the estimated lost
sales revenue from phase II items. As a result, the Under Secretary of Defense
(Comptroller), Deputy Comptroller (Program and Budget), issued Program Budget
Decision No. 425 in December 1996, which showed the potential cash impacts for the
Military Departments’ Supply Management business areas of the Defense Working
Capital fund to be $146.4 million for FY 1996 and $394.1 million for FY 1997. For
FY 1996, Inspector General, DOD, Report No. 97-106, “Consumable Item Transfer,
Phase II, Cash Imbalance Issue,” March 5, 1997, stated that DLA calculated the
reimbursement to the Military Departments at $66.5 million (see Appendix B).
Audit Objectives. The audit objectives were to report on the cash impact of the CIT,
phase II, during FYs 1997 and 1998 on the Army, Navy, Air Force, and DLA Supply
Management business areas of the Defense Working Capital fund. We also included a
review of the management control program as it applied to the audit objectives. This
report discusses the cash impact of the CIT, phase II for FY 1997. We will cover the
objective for FY 1998 in a later report.
Audit Results. Except for items transferred between DLA inventory control points,
the methodology and data that DLA used to compute the reimbursement amounts for
CIT, phase II items were objective and accurate. Using the DLA methodology, the
FY 1997 reimbursement to the Military Departments’ Supply Management business
areas of the Defense Working Capital fund was approximately $229.1 million
(see Part I).
Management controls applicable to the audit objective were deemed to be adequate in
that we did not identify any material management control weaknesses.
Summary of Recommendation. We recommend that the Director, DLA, determine
the FY 1997 sales and obligations for CIT, phase II items that were transferred between
DLA inventory control points during FY 1997.
Management Comments. The Deputy Director, DLA concurred with our
recommendation and agreed, where possible, to determine the additional amount of
sales and obligations that are attributable to CIT, phase II items that were transferred
between DLA inventory control points. The Deputy Director also agreed with the
reimbursement amount of $229.1 million. See Part I for a discussion of management
comments and Part III for the complete text of those comments.
Audit Response. Comments from the Deputy Director were responsive. We will
verify the amounts of the additional sales and obligations in our scheduled audit on the
CIT, phase II cash impact for FY 1998.




                                            ii
Table of Contents

Executive Summary                                             i


Part I - Audit Results
      Audit Background                                       2
      Audit Objectives                                       3
      Cash Reimbursements for Consumable Items Transferred   4

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                10
        Management Control Program                           11
      Appendix B. Summary of Prior Coverage                  12
      Appendix C. Report Distribution                        14

Part III - Management Comments
      Defense Logistics Agency Comments                      18
Part I - Audit Results
Audit Background

    This report is the third in a series of reports regarding the consumable item
    transfer (CIT), phase II. We performed the audit in response to a request from
    the Under Secretary of Defense (Comptroller), Deputy Comptroller (Program
    and Budget), concerning a cash imbalance issue for FY 1997.
    Consumable Items. Consumable items are those supply items that are
    consumed in use or discarded when worn out or broken because they cannot be
    repaired economically. Consumable items include not only common usage,
    low-cost supplies and minor parts, such as fasteners and gasket materiels, but
    also high-priced, sophisticated spare parts, such as microswitches; miniature
    components; and precision valves, that are vital to operating major weapon
    systems. As of December 1989, DOD managed approximately 4.1 million
    consumable items. Of the 4.1 million items, 2.9 million were managed by
    inventory control points (ICPs) of the Defense Logistics Agency (DLA) and
    1.2 million were managed by ICPs of the Army, the Navy, the Air Force, and
    the Marine Corps.
    Transfer Approval. In 1990, the Deputy Secretary of Defense approved the
    transfer of the management of consumable items from the Military Departments
    to DLA. A management team comprising representatives from the Office of the
    Secretary of Defense, the Military Departments, and DLA was formed to
    review all facets of the CIT. The management team used item management
    codes to develop a filter criteria to categorize consumable items that the Military
    Departments managed. In December 1990, the Deputy Assistant Secretary of
    Defense (Logistics) approved the filter criteria. Consumable items were to be
    transferred m two phases. Phase I consisted of routine, less complex
    consumable supplies and spare parts. Phase II consisted of items that were
    more complex and sophisticated because of their design instability and unique
    end item and critical applications, or because they required intensive
    management.
    Transfer Plan. The Military Departments and DLA developed a plan for the
    transfer of management, technical, and supply data in monthly increments. In
    phase I about 760,000 items were transferred to DLA during a 4-year period
    that ended November 1995. In phase II, the Military Departments reviewed
    items to identify those that required continued Military Department
    management. Items not requiring Military Department management were to be
    transferred to DLA during CIT, phase II.




                                         2
     Phase II Transfer. The first increment of phase II items was transferred to
     DLA in January 1996. As of September 1997, the Military Departments had
     transferred to DLA about 117,000 of the 15 1,000 consumable items planned for
     transfer. The phase II completion date, originally planned for September 1997,
     has been extended to June 1998.
     Cash Imbalance Issue. In November 1995, the Military Departments,
     concerned with the amount of anticipated lost revenues from the sale of CIT,
     phase II items, informed the Deputy Under Secretary of Defense (Logistics) and
     the Director DLA, that they would stop the phase II transfer indefinitely. The
     suspension would end with a suitable resolution of the Defense Working
     Capital fund cash implications of the phase II transfer_ In DOD, the general
     agreement was that the gaining DLA ICPs would experience a cash benefit from
     the sales of the additional items managed as a result of the CIT. Conversely,
     the losing Military Department ICPs would incur a related reduction in cash
     from the loss of sales from items transferred. In the CIT process, the losing
     Military Department ICP does not receive sales collections after items are
     transferred but continues to make disbursements for items that are on order at
     the time of transfer. To avoid reduced operations and readiness in the Military
     Departments and to ensure a cash neutrality with the CIT, phase II, the Deputy
     Comptroller requested the Military Departments to submit estimates of the cash
     impact of CIT, phase II. As a result, the Military Departments submitted
     estimates totaling $540.5 million ($146.4 million for FY 1996 and $394.1 for
     FY 1997). No estimates were submitted for FY 1998. We issued a draft audit
     report in November 1996, that verified sales and obligations for FY 1996 CIT,
     phase II item transfers. Based on our draft report, the Deputy Comptroller
     issued Program Budget Decision No. 425 in December 1996. Decision No. 425
     stipulated that the Military Departments would be reimbursed $66.5 million for
     FY 1996 and estimated that they would be reimbursed $199.6 million for
     FY 1997 and $99.8 million for FY 1998.



Audit Objectives

     The audit objectives were to identify the FYs 1997 and 1998 cash impacts the
     CIT, phase II, had on the Army, the Navy, the Air Force, and the DLA Supply
     Management business areas of the Defense Working Capital fund. We also
     included a review of the management control program as it applied to the audit
     objectives. This audit covered the objectives for FY 1997. The objectives for
     FY 1998 will be covered in a later report. See Appendix A for a discussion of
     the scope and methodology and the management control program. See
     Appendix B for a summary of prior coverage.
           Cash Reimbursements for Consumable
           Items Transferred
           The DLA used a method to compute the cash reimbursement amounts
           due the Military Departments for the CIT, phase II items transferred to
           DLA that was correct. However, DLA excluded reimbursement
           amounts for items further transferred between DLA ICPs. The DLA
           based the reimbursement amounts on total sales less obligations incurred
           for phase II item stock replenishments. Using the DLA methodology,
           the reimbursement amount of $229.1 million was appropriate for
           FY 1997.



Military Department Methodology for Computing Cash
Reimbursements

    For FY 1996, the Deputy Comptroller (Program and Budget) requested the
    Military Departments to submit estimates on the cash impact that the CIT,
    phase II would have on the Supply Management business area of their Defense
    Working Capital funds. Each Military Department computed cash
    reimbursements differently. The Army used anticipated cash outlays on vendor
    deliveries for outstanding orders on phase II items as the basis for computing
    the cash reimbursement amount. The Navy based its reimbursement estimate on
    projected sales that would be lost for those items that would be transferred to
    DLA. The Air Force used the value of lost sales and included disbursements
    for CIT, phase II items that were on order at the time of transfer. As discussed
    in Inspector General, DOD, Report No. 97-106, “Consumable Item Transfer,
    Phase II, Cash Imbalance Issue,” March 5, 1997, none of the Military
    Department methodologies accurately computed the reimbursement amounts.



DLA Methodology for Computing Cash Reimbursements

    The DLA devised a method to compute the cash reimbursement amounts due the
    Military Departments for the CIT, phase II items transferred to DLA. DLA
    developed a methodology to obtain the actual cash impact of the CIT, phase II.
    Actual sales were totaled for FY 1996; and the FY 1996 obligations that DLA
    incurred during FY 1996 to replenish inventory were subtracted to arrive at the
    net reimbursement amount. In Report No. 97-106, we recommended, and the
    Deputy Comptroller agreed, that the DLA methodology be used for the FY
    1996 reimbursements and for reimbursements for the remainder of the CIT,
    phase II transfer.
                              Cash Reimbursements for Consumable Items Transferred


Audit Verification of DLA Calculations

     FY 1997 Reimbursement Amount. Using the DLA methodology, we
     determined that the reimbursement amount of $229.1 million was appropriate
     for FY 1997. Based on the September 30, 1997, sales and obligations amounts
     that DLA accumulated, reimbursement to the Military Departments for FY 1997
     would total about $229.1 million, which is the net amount of $410.9 million in
     sales less $181.8 million in obligations. The table below shows the
     reimbursement amounts for each Military Department. The total amount of
     reimbursements is $29.5 million more than the Deputy Comptroller estimated in
     the December 1996 Program Budget Decision No. 425.
     DLA Calculations and Deputy Comptroller Estimates for FY 1997 CIT,
                        Phase II, Reimbursement Amounts
                                                  (millions)
      Military                                            Deputy
     Department DLA Calculations                    Comntroller Estimates Difference
     Army                       $41.6                          $ 42.4
     Navy                         76.7*                          74.8
     Air Force                  A110 8                           82.4
       Total                    $229.1                         $199.6       $29.5
     *Includes about $1.9 million for the Marine Corps


     The DLA amounts are supported by individual sales and obligations for each
     item transferred. The sales data can be tracked to actual document numbers for
     requisitions that customers submitted to DLA ICPs. The obligations data can
     be tracked to the contracts that DLA awarded to replenish inventory. DLA
     planned to accumulate sales and obligations data on a monthly basis to
     determine the reimbursement amounts for FY 1998.
     Accuracy of Reimbursement Amount. To verify the accuracy of the DLA
    reimbursement amount, we reviewed the sales and obligations data (for a
    judgmental sample, stratified by Military Department) of 300 CIT, phase II
    items that were accumulated in the DLA Standard Automated Materiel
    Management System at three DLA ICPs. We reviewed about $89.5 million
     (22 percent of the $410.8 million) in sales revenues and about $30.3 million
    (17 percent of the $18 1.8 million) in contractual obligations that the three DLA
    ICPs incurred during FY 1997. The actual sales amounts recorded by the DLA
    ICPs agreed with the sales and obligations amounts recorded by the DLA
    Comptroller for 296 of the 300 items reviewed. We verified that $86.1 million
    in actual sales agreed with the amounts the DLA Comptroller recorded. The
    difference, $3.4 million ($89.5 million - $86.1 million), was attributable to four
    items that had been transferred between two DLA ICPs during FY 1997. Our
    test of 300 items included 62 items with obligations valued at about
    $30.3 million. We verified that $27.9 million agreed with the amounts the
Cash Reimbursements for Consumable Items Transferred

      DLA Comptroller recorded. The difference, $2.4 million ($30.3 million -
      $27.9 million), was attributable to one of the four items that had been
      transferred between two DLA ICPs during FY 1997.



Items Transferred Between DLA ICPs During FY 1997

      During FY 1997, as part of the Defense Base Closure and Realignment Act of
      1990, DLA transferred groups of national stock numbers, known as Federal
      stock classes, between the three remaining DLA ICPs. Based on the results of
      our 300 sampled items, we determined that the DLA methodology for tracking
      CIT, phase II sales and obligations did not account for sales and obligations for
      items transferred between two DLA ICPs after the initial transfer from the
      respective Military Department ICP. For the four items in our sample, the
      DLA Comptroller did not account for $3.4 million in sales and $2.4 million in
      obligations, for a net difference of $1 million in reimbursements due the
      Military Departments. We did not determine the total number of CIT, phase II
      items that DLA transferred during FY 1997. Therefore, DLA should determine
      the additional sales and obligations attributable to the CIT, phase II items that
      were transferred between the DLA ICPs during FY 1997, so appropriate
      adjustments can be made to the FY 1997 reimbursements due the Military
      Departments. We plan to verify the additional sales and obligations data during
      our audit of the cash impact of the CIT, phase II, FY 1998.



Conclusion

      Except for items transferred between DLA ICPs, the method and data that DLA
      used to compute the reimbursement amounts for the CIT, phase II items were
      objective and accurate for the items we tested. Based on our review of the
      methodology and the items tested, the $229.1 million reimbursement amount
      that DLA calculated for items transferred in FY 1997 was appropriate.



Recommendation, Management Comments, and Audit
Response -

      We recommend that the Director, Defense Logistics Agency, determine the
      additiona amount of sales and obligations that are attributable to
      consumable item transfer, phase II items that were transferred between the
      Defense Logistics Agency inventory control points during F’Y 1997, so that
      appropriate adjustments can be made to the FY 1997 reimbursements due
      the Military Departments.
                    Cash Reimbursements for Consumable Items Transferred

Management Comments. The Deputy Director, DLA agreed with the
reimbursement amount of $229.1 million to the Military Departments and
concurred with our recommendation. The Deputy Director stated that available
data were being reviewed to determine whether it is possible, and if so, cost-
feasible to determine the additional sales and obligations that were attributable
to the phase II items that were transferred between DLA inventory control
points during FY 1997. The Deputy Director further stated that the results of
the review will be provided to the Office of the Under Secretary of Defense
(Comptroller) so that appropriate adjustments can be made to the FY 1997
reimbursements due the Military Departments. The estimated completion date
is July 1, 1998.
Audit Response. Comments from the Deputy Director were responsive. We
will verify the amounts of the additional sales and obligations in our scheduled
audit on the CIT, phase II cash impact for FY 1998.
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology

    Scope. We reviewed the processes that DLA and the Military Departments
    used to compute the estimated cash reimbursement amounts to be given to the
    Military Departments as a result of CIT, phase II. We reviewed accounting
    reports and item transaction history reports for FY 1997. We reviewed the
    procedure that DLA used to gather FY 1997 sales and obligations data for CIT,
    phase II items.
    Methodology. We reviewed FY 1997 sales and obligations data for a
    judgmental sample, stratified by Military Department, of 300 CIT, phase II
    items that had been transferred to DLA as of September 30, 1997. Our sample
    was selected from a universe of 96,649 items and included those items that had
    the highest demand values for the 12 months preceding the transfer to DLA (see
    Table A). The 300 sampled items represented $217.4 million of the
    $563.5 million in annual demand value that was attributable to the universe of
    96,649 CIT, phase II items. We compared the actual sales and obligations data
    that were recorded at three DLA ICPs (Defense Industrial Supply Center,
    Philadelphia, Pennsylvania; Defense Supply Center Columbus, Columbus,
    Ohio; and the Defense Supply Center Richmond, Richmond, Virginia) to
    similar data that the DLA Comptroller accumulated in an effort to determine
    amounts to be reimbursed to the Military Departments as a result of CIT,
    phase II transfers. As of May 1997, management of 96,649 of a projected
     150,866 phase II consumable items had been transferred from the Military
    Departments to DLA.

                   Table A. Transfer of Consumable Items

                                Items
                           Scheduled to be           Items           Items
    Militarv DeDartment      Transferred           Transferred      Samnled

       Army                     19,593                14,426         54
       Navy                     35,628                21,296         77
       Air Force                95,645                60.927        169

         Total                 150,866                96,649        300

    Use of Computer-Processed Data. We verified information sampled from the
    DLA Standard Automated Materiel Management System database maintained by
    DLA for items transferred from the ICPs of the Military Departments, and from
    the database of sales and obligations maintained by the DLA Comptroller for
                                      10
                                                      Appendix A. Audit Process

    CIT, phase II items. Data tests showed that records in each database were
    reliable. We made no independent assessments of the reliability of computer-
    processed data used in the audit.
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from May through October 1997 in accordance with auditing
    standards issued by the Comptroller General of the United States as
    implemented by the Inspector General, DOD. Accordingly, we included tests of
    management controls considered necessary.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.



Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.
    Scope of Review of Management Control Program. We reviewed the
    adequacy of the DLA management controls over the CIT, phase II as they
    related to the methodology used by DLA to determine the cash reimbursement
    amounts for the Military Departments’ Supply Management business areas of
    the Defense Working Capital fund.
    Adequacy of Management Controls. The DLA management controls we
    reviewed were adequate; we identified no materiel management control
    weaknesses.




                                       11
Appendix B. Summary of Prior Coverage
   Inspector General, DOD, Report No. 97-226, ‘dConsumable Item Transfer,
   Phase II, Management,” September 30, 1997. The report states that
   generally, the CIT, phase II was being effectively implemented, and that items
   were transferred with appropriate logistics data. However, the Military
   Departments inappropriately retained management of 4 1,300 consumable items
   that should have been transferred to DLA. Also, the Military Departments did
   not provide full pipelines of inventory assets to DLA when transferring phase II
   items. DLA identified a $125 million pipeline asset shortage for CIT, phase II
   items that reduced supply availability for transferred items and could reduce the
   readiness of the Military Departments’ weapons systems. The report
   recommended that the Deputy Under Secretary of Defense (Logistics) direct the
   Military Departments to rescreen consumable items retained for management,
   transfer items appropriately, and justify the retention of items in accordance
   with DOD policy. The report also recommended that the Military Departments
   establish controls to ensure that DLA was provided with full pipelines of assets
   for CIT, phase II items and that Military Department ICPs validate open
   purchase requests for phase II items, expedite contractual orders, and advise
   DLA ICPs of delays and cancellations of purchase requests. Additionally, the
   report recommended that the Director, DLA, direct the Defense Industrial
   Supply Center and the Defense Supply Center, Columbus, to identify potential
   supply support problems for phase II items and coordinate remedial action with
   Military Department ICPs. The Deputy Under Secretary, DLA, and the
   Military Departments generally concurred with the recommendations and
   planned or took action to satisfy the intent of the recommendations.
   Inspector General, DOD, Report No. 97-106, “Consumable Item Transfer,
   Phase II, Cash Imbalance Issue,” March 5, 1997. The report states that each
   Military Department computed cash reimbursement estimates differently. The
   amounts were based on projected lost sales revenue, anticipated disbursements
   on vendor deliveries for outstanding orders for phase II items, or a combination
   of lost sales revenue and disbursements. DLA devised a method that used
   actual sales of phase II items and the related obligations to replenish inventory.
   The DLA methodology was the most accurate and consistent way to determine
   the cash reimbursements due the Military Departments. The reimbursement
   amount that DLA calculated for FY 1996 CIT, phase II transfers was
   $66.5 million, about $80 million less than the Military Departments estimated.
   The report concluded that the method and data that DLA used to estimate the
   reimbursement amounts for CIT, phase II items were the most objective. The
   report stated further that the method DLA used in determining cash
   reimbursement amounts should continue to be used for the remainder of CIT,
   phase II. Although the report made no recommendations, comments on the
   report from the Military Departments generally nonconcurred with the audit
   results. We did not pursue obtaining concurrences from the Military
   Departments because the Deputy Comptroller accepted our report and because
   the budget cycle period that the audit covered had ended.
   Inspector General, DOD, Report No. 94-071, “Transfer of the Management
   of Consumable Items to the Defense Logistics Agency,” March 31, 1994.
   The report states that the CIT, phase I program was generally effective.

                                       12
                                     Appendix B. Summary of Prior Coverage

However, there was an inadequate baseline of consumable items to be
transferred; filter criteria used to identify items for transfer were revised and not
consistently applied at the losing ICPs; DOD procedures for making logistics
reassignments were not fully complied with, some essential logistics data were
not transferred from the Military Departments to DLA; and no methodology to
incorporate program requirements data into the transfer process was established,
impacting weapons systems support programs. The report also states that the
Military Departments transferred substantial amounts of excess inventory with
inactive phase I items. About $259 million in excess inventory had been
transferred with about 10,000 inactive items. The report recommended that the
Military Departments follow the prescribed DOD criteria in reviewing
consumable items for transfer. The report also recommended that staffing
levels at DOD ICPs be reviewed, communication and recording of essential
logistics data for transferred items be improved, and controls be implemented to
ensure that DLA inventory managers use the data. Finally, the report
recommended that the Military Departments delete inactive items from their
supply systems and dispose of excess inventory before transfer actions were
initiated. DLA and the Military Departments generally concurred with the
recommendations and planned to take or took actions to satisfy the intent of our
recommendations.




                                     13
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Logistics)
      Assistant Deputy Under Secretary of Defense (Materiel and Distribution
        Management)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program and Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Deputy Chief of Staff (Logistics)
  Commander, Army Materiel Command
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Commander, Naval Supply Systems Command
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Chief of Staff (Logistics)
Commander, Air Force Materiel Command
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Supply Center Columbus
   Commander, Defense Supply Center Richmond
   Commander, Defense Industrial Supply Center
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency



                                          14
                                                   Appendix C. Report Distribution


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:
  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          15
Part III - Management Comments
Defense Logistics Agency Comments

                                         DEFENSE LOGISTICS AGENCY
                                                   HEADOUARTERS
                      I                8725 JOHN J. KINGMAN ROAD, SUITE 2533
                                           FT. BELVOIR, VIRGINIA 221X0-622 1



N REPLY
 REFER    TO   DDAI


               MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDITING
                                 DEPARTMENT OF DEFENSE


               SUBJECT: Draft Report: Cash Impact of the Consumable Item Transfer, Phase II, FY 1997
                        (Project No. 7LD-5038)

                This is in response to the December 4,1997 request. If you have any questions, please contact
               Mr. Dave Stumpf, (703) 767-6266.




               Encl
                                                                _l’ Team Leader, Liaison and Policy
                                                                    IntemaI Review Offke




                                                       18
                                                      Defense Logisitcs Agency Comments




Subject: Cash Impact of the Consumable Item Transfer, Phase II, FY 1997
           (Project No. 7LD-5038)


Finding A. Cash Reimbursements for Consumable Items Transferred. The DLA used a
method to compute the cash reimbursement amounts due the Military Departments for the CIT,
phase II items transferred to DLA that was correct. However, DLA excluded reimbursement
amounts for items further transferred between DLA ICPs. The DLA based the reimbursement
amounts on total sales less obligations incurred for phase II item stock replenisbments. Using the
DLA methodology, the reimbursement amount of $229.1 million was appropriate for FY 1997.

DLA Comments: Concur. DLA agrees with the reimbursement amount of %229.1M for FY
1997. We also agree that this amount does not reflect those CIT Phase II items that transferred
between ICPs during FY 1997.

Action Officer: Barbara Donegan, FOXP, 767-7249
Review/Approval: Billie Blackman, FOX, 767-7293
Coordination:    Dave Stumpf, DDAI, 767-6266




                                               19
                                                                                                           -




Defense Logistics Agency Comments




       Subject: Cash Impact of the Consumable Item Transfer, Phase II, FY 1997


       Recommendations 1: We recommend that the Director, Defense Logistics Agency, determine
       the additional amount of saIes and obligations that are attributable to consumable item transfer,
       phase II items that were transferred between the Defense Logistic Agency inventory control
       points during FY 1997, so that appropriate adjustments can be made to the FY 1997
       reimbursements due the Military Departments.

       DLA Comments: Concur. We are reviewing available data to determine whether it is possible,
       and if so, cost-feasible to determine the additional amount of sales and obligations that are
       attributable to the CIT Phase II items transferred between DLA inventory control points during
       FY 1997. We will provide the results of our review to OUSD(C) so that appropriate adjustments
       can be made to the FY 1997 reimbursements due the Military Departments.

       Disposition: Action is ongoing. ECD: 7/l/98

       Action Officer:  Barbara Donegan, FOXP, 767-7249
       Review/Approval: Billie Blackman, FOX, 767-7293
       Coordination:    Dave Stumpf, DDAI, 767-6266




                                                     20
Audit Team Members

This report was prepared by the Readiness and Logistics Support
Directorate, Office of the Assistant Inspector General for Auditing, DOD.
Shelton R. Young
Tilghman A. Schraden
Pat Golden
Paul A. Hollister
Alexander L. McKay
Janice Conte
Herman Tolbert
